OIG Investigative Reports, Press Release, Madison Wis., 1/25/2012 - Three Charged With Mail Fraud, Identity Theft, and Student Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney John W. Vaudreuil
Western District of Wisconsin
FOR IMMEDIATE RELEASE
JANUARY 25, 2012
WWW.JUSTICE.GOV/USAO/WIW
Contact: Jeanne F. Cooney, Director of Community
PHONE: (612) 664-5611
E-Mail: Jeanne Cooney
Federal Grand Jury Returns Indictments
Madison, Wisconsin — A federal grand jury in the Western District of   Wisconsin, sitting in Madison, returned the following indictments today. You are   advised that a charge is merely an accusation and that a defendant is presumed   innocent until and unless proven guilty.
Three Charged With Mail Fraud, Identity Theft, and Student   Financial Aid Fraud
Nicole Griffin, 49, Richard Griffin, 35, both of Prior Lake, Minn., and Maria Hurt, 35, Galesburg, Ill., are charged in a 19–count indictment with devising   and participating in a scheme to fraudulently obtain federal student financial   aid by falsifying student loan applications. It is alleged that between August   2003 and January 2010, the defendants fraudulently used in excess of 50 persons’   personal identifiers and defrauded the United States of more than $400,000.
All three defendants are charged with 12 counts of mail fraud. Nicole Griffin   is charged with two counts of identity theft and five counts of student   financial aid fraud. Richard Griffin is charged with two counts of identity   theft and four counts of student financial aid fraud. Hurt is charged with one   count of identity theft and two counts of student financial aid fraud. Nicole   Griffin and Richard Griffin are married.
The indictment alleges that Nicole Griffin fraudulently applied for federal   and state student financial aid at schools in Minnesota by falsifying her own   eligibility for financial aid. In addition, it alleges that Nicole Griffin also   took the personal identifiers of various persons, including their social   security numbers, or recruited other persons to provide this information to her,   which she used to fraudulently apply for and receive federal student financial   aid in the name of the other persons.
The indictment alleges that Maria Hurt, upon the request of Nicole Griffin,   stole and improperly appropriated the personal identifiers of various persons,   including their social security numbers, and provided those to Nicole Griffin,   who used the identifiers to apply for and obtain federal student financial aid   in the name of those persons.
The indictment alleges that Richard Griffin recruited persons to voluntarily   provide personal identifying information to Nicole Griffin, which was then used   to fraudulently obtain federal student financial aid. It is also alleged that   Richard Griffin deposited financial aid checks, that contained forged   endorsements, into accounts controlled by him, and also recruited persons to   deposit financial aid checks containing forged endorsements into their personal   accounts and to provide him with part of the money.
“The crimes alleged in this indictment take money from hardworking   taxpayers and legitimate students,” said Thomas D. Utz, Jr., Special Agent   in Charge of the U.S. Department of Education Office of Inspector General’s   Central Regional Office. “OIG is committed to fighting   student financial aid fraud and we will continue to aggressively pursue those   who participate in these crimes.”
“The investigation and prosecution of fraud against the United States is a   top priority of the U.S. Department of Justice,” said John W. Vaudreuil,   United States Attorney for the Western District of Wisconsin. “I commend the   diligence of OIG in the   investigation of this case and share their commitment to hold the perpetrators   of student financial aid fraud responsible for their crimes.”
If convicted, the defendants face a maximum penalty of 20 years in federal   prison for each mail fraud count, two years in federal prison for each identity   theft count, and five years for each count of student financial aid fraud. The   charges against them are the result of an investigation by the U.S. Department   of Education, Office of Inspector General. The prosecution of this case has been   assigned to Assistant U.S. Attorney Peter M. Jarosz.
# # # #
Top
Printable view
Last Modified: 02/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov